Weinberg
Roger &
Rosenfeld

1001 Marina Village Parkway, Suite 200
Alameda, California 94501
TELEPHONE: (510) 337-1001
FACSIMILE: (510) 337-1023
David A. Rosenfeld
drosenfeld@unioncounsel.net

A Professional Corporation

STEWART WEINBERG
DAVID A ROSENFELD
WILLIAM A SOKOL
ANTONIO RUIZ
MATTHEW J. GAUGER
ASHLEY K. IKEDA•
LINDA BALDWIN JONES
PATRICIA A DAVIS
ALAN G. CROWLEY
KRISTINA L. HILLMAN 4,
EMILY P. RICH
BRUCE A HARLAND
CONCEPCION E. LOZANO-BATISTA
CAREN P. SENCER
ANNE I. YEN
KRISTINA M. ZINNEN
JANNAH V. MANANSALA
MANUEL A BOIGUES•
KERIANNE R. STEELEB
GARY P. PROVENCHER
EZEKIEL D. CARDER►
LISL R. SOTO
JOLENE KRAMER
ALEJANDRO DELGADO

CAROLINE N. COHEN
XOCHITL A. LOPEZ
CAITLIN E. GRAY
TIFFANY CRAIN ALTAMIRANOB
DAVID W.M. FUJIMOTO
ALEXANDER S. NAZAROV
THOMAS GOTTHEIL (106-2019)
JERRY P.S. CHANG•
ANDREA C. MATSUOKA
KATHARINE R. McDONAGH
BENJAMIN J. FUCHS,
CHRISTINA L ADAMS♦
WILLIAM T. HANLEY
ABEL RODRIGUEZ

OF COUNSEL
ROBERTA D. PERKINS
NINA FENDEL
TRACY L. MAINGUY"
ROBERT E. SZYKOWNY
ANDREA K. DON
LORI K AQUINO•
SHARON A SEIDENSTEN

•
•
♦
►
•

Admitted in Hawaii
Also admitted in Nevada
Also admitted in Illinois
Also admitted in New York and
Alaska
Also admitted in Florida
Also admitted in Minnesota

January 22, 2020
VIA ELECTRONIC FILING
Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: OTO v. Kho Research Project
Case No. 19-875
Dear Mr. Harris:
Our office represents the Respondent, Ken Kho in the above-entitled matter. The
Respondent consents to the filing of briefs amicus curiae related to the Petition for a Writ
of Certiorari. Should you need any additional information, please do not hesitate to let
me know.
Sincerely,
yi el
i—oC
ser
i- feld
DAR:Ida
opeiu 29 afl-cio(1)
cc:

Kannon K. Shanmugam
Miles E. Locker

144087\1065747

LOS ANGELES OFFICE
800 Wilshire Boulevard, Suite 1020
Los Angeles, CA 90017-2607
TEL 213.380.2344 FAX 213.443.5098

SACRAMENTO OFFICE
431 I Street, Suite 202
Sacramento, CA 95814-2341
TEL 916.443.6600 FAX 916.442.0244

HONOLULU OFFICE
220 South King Street, Suite 901
Honolulu, HI 96813-4500
TEL 808.528.8880 FAX 808.528.8881

Mr. Scott Harris
January 22, 2020
Page 2
PROOF OF SERVICE
(C.C.P. § 1013)
Iam a citizen of the United States and resident of the State of California.Iam employed in the
County of Alameda, State of California, in the office of a member of the bar of this Court, at whose
direction this service was made.Iam over the age of eighteen years and not a party to the within
action.
On January 23, 2020,Iserved the following document in the manner described below:
LETTER TO SUPREME COURT CLERK
(BY U.S. MAIL)Iam personally and readily familiar with the business practice of
Weinberg, Roger & Rosenfeld for collection and processing of correspondence for
mailing with the United States Postal Service, andIcaused such envelope(s) with
postage thereon fully prepaid to be placed in the United States Postal Service at
Alameda, California.
On the following part(ies) in this action:
Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, NW
Washington, DC 20006-1047

Mr. Miles Locker
Division of Labor Standards Enforcement
Department of Industrial Relations
State of California
455 Golden Gate Avenue, 9th Floor
San Francisco, CA 94102

Ideclare under penalty of perjury under the laws of the California that the foregoing is true and
correct. Executed on January 23, 2020, at Alameda, California.
reen D. Arnold

